           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



      MANAGEMENT’S USE OF
    WORKLOAD STATUS REPORTS
       AT HEARING OFFICES


    March 2007   A-12-06-26130




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      March 26, 2007                                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Management’s Use of Workload Status Reports at Hearing Offices (A-12-06-26130)


           OBJECTIVE

           Our objective was to assess the effectiveness of the benchmarks used in the Case
           Processing and Management System’s (CPMS) No Status Change report to identify
           bottlenecks in the Social Security Administration’s (SSA) hearing process.

           BACKGROUND
           SSA’s Office of Disability Adjudication and Review (ODAR) has taken a number of
           steps to improve the productivity of the hearing process, including the implementation
           of CPMS in August 2004. CPMS was designed to control and process hearing claims
           and produce management reports to monitor the hearing workload. 1 The No Status
           Change report is 1 of over 40 management reports produced by CPMS. The purpose
           of the No Status Change report is to ensure pending claims are processed timely. As
           of June 2006, ODAR had approximately 725,000 pending claims in CPMS.

           As part of CPMS, hearing office employees assign a status code to each claim as it
           moves through the process. The status code identifies the processing stage and
                                                                           2
           location of the claim. While CPMS uses about 40 status codes to track and process
           pending claims in the hearing offices, the No Status Change report tracks claims in
           12 specific status codes (see Table 1). 3 For each of the 12 status codes tracked by the

           1
             CPMS is a component of the SSA’s electronic disability (eDIB) initiative. The goals of eDib are to
           expand the use of the Internet for completing disability-related forms, to automate the disability claims
           intake process, to provide electronic access to disability-related information, and, ultimately, to produce a
           paperless disability process; see June 15, 2006 statement by Commissioner Jo Anne B. Barnhart, before
           the Subcommittee on Social Security of the House Committee on Ways and Means regarding SSA’s
           Improved Disability Determination Process.
           2
               See Appendix B for a table illustrating all status codes used by CPMS.
           3
             See Appendix C for a more detailed illustration of the 12 status codes tracked by the No Status Change
           report.
Page 2 - The Commissioner

No Status Change report, ODAR has set a benchmark time (measured in days). If the
claim stays in a status code beyond the benchmark time, the claim will appear in the No
Status Change report. The claim will continue to appear in the No Status Change
report until the status code is changed. Status codes are only used on cases moving
through the process since the hearing office has control over the case getting to the
next stage.

      Table 1: 12 Benchmarks in No Status Change Report (Chronological Order)
      Status Codes Tracked by the            ODAR
       No Status Change Report             Benchmark             Explanation of Benchmark Step
    1. Master Docket                         30 days     Claim information input to CPMS.
    2. Work Up                               25 days     Claim assigned and being prepared for review.
    3. Pre-Hearing Development               90 days     Requested additional information prior to hearing.
    4. Administrative Law Judge              10 days
    (ALJ) Review Pre-Hearing                             ALJ reviewing claim prior to hearing.
    5. Ready to Schedule                     60 days     Claim work-up and development completed.
    6. Post-Hearing Development              90 days     ALJ requested more information after hearing.
    7. ALJ Review Post-Hearing               30 days     ALJ examining record prior to writing decision.
    8. Unassigned Writing                    30 days     Claim waiting to be assigned to a writer.
    9. Decision Writer Personal              15 days     Writer using a personal computer to draft
    Computer                                             decision.
    10. Edit                                 15 days     ALJ editing final written decision.
    11. Sign                                   7 days    Decision ready for ALJ’s signature.
    12. Mail                                   7 days    Decision signed and ready for release
    Total                                    409 days
Note: See Appendix C for more specific information on each step above.

For this review, we analyzed and compiled data on 140 CPMS No Status Change
        4
reports (1 for each of ODAR’s 140 hearing offices) to determine the timeliness of the
hearing process. While any claim past the benchmark is technically untimely, we tried
to identify the most serious problems by defining an “untimely” claim as one that
exceeded the established benchmark for that status code by 100 percent or more. We
also interviewed ALJs, staff, and managers at ODAR’s Headquarters, Regional Offices
and hearing offices. 5

RESULTS OF REVIEW

Of the 725,000 pending claims, 419,000 (58 percent) were not being tracked on the No
Status Change report. The majority of these untracked claims were in Unassigned
                6
Workup (UNWK) status code, indicating they were awaiting processing. The

4
 Our analysis was conducted at a point in time, representing a snapshot of the hearing workload. We
compiled 140 No Status Change reports provided by ODAR in June 2006.
5
    For a further discussion of our scope and methodology, see Appendix D.
6
    The list of status codes is located in Appendix B.
Page 3 - The Commissioner

remaining claims were in Scheduled status awaiting a hearing date. We were unable to
find a clear link between the No Status Change benchmarks and the Agency’s
performance measure for the average processing time for a hearing. Moreover, ODAR
was unable to provide the methodology used to establish the benchmarks in Fiscal
Year (FY) 1999. Of the 306,000 pending claims with benchmarks, about 118,500
exceeded the No Status Change benchmarks. We found the majority of the untimely
claims were accumulating under three status codes: (1) Master Docket (MDKT), (2)
ALJ Review Pre-Hearing, and (3) Ready to Schedule (RTS). Most of the claims
exceeding the MDKT benchmark related to coding problems at 11 hearing offices. As a
result, ODAR’s national statistics on the status of its pending workload were not
consistently reported for each office. We also determined that while ODAR was taking
steps to decrease the number of cases exceeding the RTS status benchmark, ALJ
departures were negatively impacting claims in this status code.

PENDING CLAIMS AND BENCHMARKS

Of the 725,000 pending claims, 419,000 were located in 2 status codes that did not
have benchmarks (see Figure 1), while 306,000 claims had benchmarks and were
being tracked by the No Status Change report. About 48 percent of the pending claims
were in the UNWK status code. The UNWK status code indicates that a claim was
entered into the hearing office’s MDKT, but the claim is “inactive” and stored in a file
cabinet awaiting processing. The remaining 10 percent of the pending claims were
located in the Scheduled status code. The Scheduled status code indicates the claim
was scheduled for a hearing and is awaiting a hearing date.

                  Figure 1: Distribution of ODAR’s Pending Workload
                                         (as of June 2006)

                                                             346,500 Pending
                                                                Claims in
     306,000 Claims                                            Unassigned
    in Status Codes                           48%            Workup (UNWK)
                                                                                No Timeliness
     Tracked by the            42%                             Status Code      Benchmark
       No Status
    Change Report                                            72,500 Pending
                                                                                With Timeliness
                                                                Claims in
                                                                                Benchmarks
                                            10%                Scheduled
                                                              Status Code



As we have noted in previous audit reports, 7 over the last several years hearing office
receipts have outpaced hearing office dispositions, resulting in an increasing pending
workload and worsening processing times. ODAR’s hearing offices have been unable
to process all the incoming workload. Consequently, the number of pending claims

7
 SSA OIG, The Effects of Staffing on Hearing Office Performance (A-12-04-14098), March 2005; and
Best Practices in Highest Producing Hearing Offices (A-12-04-14020), August 2004.
Page 4 - The Commissioner

stored in file cabinets under the UNWK status code has been increasing. Claims
continue to age while being held in the “inactive” UNWK status code. Hearing office
managers use the CPMS Pending Claims 8 management report to track the claims,
while they are in the UNWK status code. Hearing office staff move the pending claims
out of the UNWK status code, and place them into the hearing process, based on the
“Request for Hearing” date. Therefore, the oldest claims are processed before the
newer claims, unless the claim is labeled as a Critical Case. Critical Cases are a
                                  9
priority and are processed first.

While ODAR has not established a benchmark for pending claims in the UNWK status
code, it has set a time limit for pending claims in the Scheduled status code. SSA has
instituted a new rule, 10 as part of its new Disability Service Improvement plan, stating
that the ALJ will notify the claimant of the time and place of the hearing at least 75 days
before the date of the hearing.

SSA’S AVERAGE PROCESSING TIME GOAL

While the No Status Change report is designed to improve hearing office timeliness, we
could not find a link between the No Status Change benchmarks and SSA’s average
processing time goal for hearing claims. According to the Agency’s FY 2006
Performance and Accountability Report, SSA’s performance goal for average
processing time in FY 2006 was 467 days. ODAR did not provide a methodology for
how it computed the 12 No Status Change benchmarks, which allow a total of 409 days
for a hearing claim to meet all benchmarks.

In response to our request for this methodology, ODAR management staff stated:

          On March 10, 1999, ODAR’s Chief Administrative Law Judge implemented
          the use of suggested benchmarks for the maximum length of time a case
          should be allowed to remain in various statuses. The purpose of the
          benchmarks are to ensure timely case movement and proper management
          of the pending workloads to prevent bottlenecks in the hearing office
          process.

While the purpose of the CPMS’ No Status Change report was to ensure cases are
worked within management’s timeliness goals, it is not clear how the report’s
benchmarks support the Agency’s stated goal. Moreover, the No Status Change
benchmarks have not been adjusted since 1999, so the amount of allowed days for a
case to remain “timely” has stayed constant while actual timeliness has deteriorated

8
 SSA OIG, Case Processing and Management System and Workload Management (A-12-06-26012),
June 2006.
9
  ODAR designates a claim for expedited processing based on one of three criteria: (1) terminal illness,
(2) dire need, and (3) homicidal. For more information on Critical Cases, see the Hearings, Appeals and
Litigation Law manual Section I-2-1-40 Critical Cases.
10
     20 C.F.R. §405.315(a).
Page 5 - The Commissioner

(see Figure 2). During the 6-year period from FY 2001 to FY 2006, SSA’s average
                                               11
processing time increased by over 57 percent. As we have noted in a previous
      12
audit, during this period hearing office receipts outpaced hearing office dispositions,
resulting in an increasing pending workload and worsening timeliness.

                   Figure 2: Trends in Average Processing Time for Hearings and
                           No Status Change Benchmark Times (in Days)

                                                                                         Total time
                  499                                                              499   including claims
            480                                                                    483   spent in
                                                                                   467   Scheduled status
                                                                    442   443            Average
            420                                                                          Processing Time
                  409                                                              409
     Days




                                                        391
                                            352               377
            360
                                336               344                                    Average
                    308                                                                  Processing Time
                                      330
            300                                                                          Goal

                          271
                                                                                         CPMS No Status
            240                                                                          Change Total
                    2001        2002        2003       2004           2005      2006     Benchmark Time
                                              Fiscal Years


In addition, Hearing Office Directors (HOD) told us that hearing offices attempt to
schedule hearings at least 3 months in advance. Therefore, adding 90 days to the
existing No Status Change benchmarks results in a total of 499 days (see green line in
Figure 2). Hence, under the current process, a hearing can remain “timely” by meeting
all the timeliness benchmarks in the No Change Status report, and also meeting the
standard 90 days for Scheduling, and still require 499 days for processing—32 days
more than the Agency’s goal for FY 2006.

In our discussions with ODAR managers, they stated the benchmarks should be viewed
as a tool for managing the workflow of cases through the hearing office, but not
necessarily something directly correlating to case processing time. ODAR management
stated that the “…calculation for processing time considers a different set of criteria
than the calculation for benchmarks….” ODAR management noted that the
benchmarks “…are not intended to ‘add up’ to the overall processing time” and “It is
only coincidence if they do." ODAR management also noted that the office is currently
in the process of revising the benchmarks.



11
     SSA’s Annual Performance and Accountability Reports.
12
     SSA OIG, The Effects of Staffing on Hearing Office Productivity (A-12-04-14098), March 2005.
Page 6 - The Commissioner

In terms of processing time, ODAR management pointed out that case processing
delays are caused by “excessive backlogs.” ODAR management stated “…it takes
longer to process a case waiting in a queue than it does a 'fresh' case…The additional
time it takes to retrieve and analyze evidence in queued cases directly relates to the
increase in processing time."

Although much of the decline in timeliness over the years can be attributed to the
growing backlog, we also believe the No Status Change report benchmarks represent
work processes that ODAR has within its control. As a result, the Agency has an
opportunity to set standards for these processes to improve timeliness. The risk under
the current report benchmarks is that hearing claims could exceed the Agency’s stated
performance goal and still appear “timely” to ODAR management. Greater correlation
between ODAR’s monitoring with the No Status Change report and SSA’s stated goals
in its accountability reports could improve the overall timeliness of the hearing process.

BOTTLENECKS IN THE HEARING PROCESS

Of the 306,000 pending claims with benchmarks, about 118,500 (39 percent) exceeded
                                     13
the No Status Change benchmarks. In this section, we considered any claim that was
                                                                                     14
in the same status code more than 100 percent of the benchmark to be “untimely.”
We found that 63 percent of the 118,500 claims were untimely (see last column in
Table 2). The majority of the untimely claims were bottlenecking in the MDKT status
code, the ARPR status code and the RTS status code. The MDKT status code
indicated a request for hearing was received in the hearing office and that the claim was
logged into CPMS. The Administrative Law Judge Pre-Hearing Review (ARPR) status
code indicated an ALJ was reviewing the claim prior to the hearing to determine
whether enough evidence was present to hold the hearing and to determine whether
expert witnesses were needed. The RTS status code indicated all workup, pre-hearing
development, and contact had been completed. The reasons claims were
bottlenecking in the three status codes are discussed in the sections that follow.




13
  Our analysis was conducted at a point in time, representing a snapshot of the hearing workload. We
compiled 140 No Status Change reports provided by ODAR in June 2006.
14
   For instance, MDKT has a benchmark of 30 days. If a claim in MDKT status code was processed after
60 days, then we considered the claim untimely. We did this to isolate the more problematic claims in
each status code rather than focus on those cases that missed the benchmark by only a few days.
However, our definition of an untimely claim only relates to the specific benchmark and does not relate to
the entire process. For example, a claim may be untimely for one benchmark while meeting all of the
other benchmarks and, therefore, be issued within the Agency’s performance goal for average processing
time.
Page 7 - The Commissioner

                 Table 2: No Status Change Benchmarks (as of June 2006)
                                                                                               Percent of
                                                                  Total          Claims          Claims
                                                                 Claims        Exceeding       Exceeding
       Status Codes Tracked by the                ODAR         Exceeding       Benchmark       Benchmark
                                1
        No Status Change Report                 Benchmark      Benchmark        By 100%         By 100%
 Master Docket                                  30 days          48,427          38,779             80
 Work Up                                        25 days          10,737            6,838            64
 Pre-Hearing Development                        90 days           4,850           1,695             35
 ALJ Review Pre-Hearing                         10 days          13,515          10,076             75
 Ready to Schedule                              60 days          18,039           7,526             42
 Post-Hearing Development                       90 days            3,316            617             19
 ALJ Review Post-Hearing                        30 days            4,698           2,506            53
 Unassigned Writing                             30 days            7,232           3,379            47
 Decision Writer Personal Computer              15 days            3,282           1,348            41
 Edit                                           15 days            1,247             548            44
 Sign                                            7 days            1,930             570            30
 Mail                                            7 days            1,195             349            29
 TOTALS                                        409 Days          118,468          74,231            63
Note 1: The No Status Change status codes illustrated in Table 2 are placed in the order of the normal
processing steps that are followed by ODAR hearing offices.

Bottleneck of Claims in Master Docket Status

Approximately 80 percent of the No Status Change pending claims under the MDKT
status code exceeded 60 days (see Figure 3). Hearing office staff placed the claim in
the MDKT status code to indicate that a request for a hearing was received in the
hearing office and that the claim was logged into CPMS.

            Figure 3: Claims in Master Docket Status Past the Benchmark
                                           (as of June 2006)

                                                                            Timely
                                Untimely                                 9,648 Claims
                              38,779 Claims                                  (20%)
                                  (80%)

                                                                                        30 to 60 Days
                                                                                        > 60 Days




We found that close to 37,000 of the pending claims bottlenecking in MDKT status were
located in 11 hearing offices. After interviewing 11 Hearing Office Directors (HOD) at
these hearing offices, we learned that they were holding claims under the MDKT status
code until the claim began the hearing process. However, most of ODAR’s 140 hearing
offices were using the MDKT status code only to indicate that claims were logged into
Page 8 - The Commissioner

CPMS. 15 After the claims were logged into CPMS, the majority of ODAR’s hearing
offices changed the claim’s status to the UNWK status code. 16 As discussed
previously, while the claims are in the UNWK status code, they are inactive and stored
in file cabinets until they are assigned to a hearing office employee for processing.

After we talked with the 11 HODs, 5 of the hearing offices changed the status code
from MDKT to UNWK. As a result, the number of MDKT claims dropped from 37,000 to
20,000 in these 11 hearing offices.

The assignment of different status codes to claims may alter the pending claim national
statistics and also take focus away from problems in the MDKT area.

•    National Statistics: ODAR's national statistics on the processing status of its
     pending claims were not being reported consistently. In June 2006, ODAR reported
     that 48 percent of its pending claims were in UNWK status, however, that number
     would have been larger (since the majority of the 48,000 claims past the MDKT
     benchmark should be reassigned to the UNWK status code) if all hearing offices
     followed the same procedure when assigning the MDKT status code to claims.

•    Greater Focus on Problem Cases: If the HODs at the 11 hearing offices moved
     the cases from MDKT to UNWK, they would have fewer claims in MDKT status to
     review for some type of corrective action. We learned the HODs in the 11 hearing
     offices were not using the CPMS No Status Change report to track the timely
     processing of claims in MDKT status. The HODs stated that they did not pay
     attention to the MDKT benchmark, because there were too many claims listed in the
     No Status Change report that exceeded the benchmark for them to review. In our
     previous audit of CPMS, 17 we found that HODs at some hearing offices we visited
     were not using the No Status Change report, and were not aware of claims in MDKT
     status long past the 30-day benchmark. In one example, a hearing office waited
     over 400 days for a claim folder to arrive from the SSA field office, and was not
     aware of the problem until we made them aware of the claim.




15
  In May 1998, ODAR’s Chief ALJ sent a memorandum to the hearing offices with instructions stating that
cases should remain in the MDKT status no more than a few hours or a few days with a few minor
exceptions. The exceptions were: receipt of the Request for Hearing without the case file, non-receipt of
a prior file and travel docket cases.
16
  As mentioned previously, the UNWK status code indicates that the claim has been logged into CPMS
and is ready for the next step in the hearing office process. No processing has been done on the claim
other than to log it into CPMS. The time a claim spends in UNWK is not tracked by the CPMS No Status
Change report.
17
  SSA OIG, Case Processing and Management System and Workload Management (A-12-06-26012),
June 2006.
Page 9 - The Commissioner

Bottleneck of Claims in ARPR Status

About 75 percent of the No Status Change pending claims under the ARPR status code
were untimely since they were under the ARPR status code for 20 or more days (see
Figure 4). Hearing office staff placed the ARPR status code on a claim to indicate that
an ALJ was reviewing the claim prior to the hearing to determine whether enough
evidence was present to hold the hearing and to determine whether expert witnesses
were needed.

                   Figure 4: Claims in ALJ Pre-Hearing Review Status
                           Past the Benchmark (as of June 2006)



                          Untimely
                                                                           Timely
                        10,076 Claims
                                                                        3,439 Claims
                            (75%)
                                                                            (25%)

                                                                                           10 - 20 Days


                                                                                           >20 Days




According to the 11 ALJs we interviewed, some claims took longer to process because
of their complexity. The ALJs stated that some claims contained a significant amount of
evidence to examine, which caused them to miss the ARPR 10-day benchmark. ALJs
also expressed a concern that they had too many cases on their dockets, and
therefore, they were constantly balancing the quality of the decision with the Agency’s
goal for average processing time. 18

Bottleneck of Claims in Ready to Schedule Status

About 42 percent of the No Status Change pending claims in the RTS status code were
under this status code for 120 or more days (see Figure 5). Hearing office staff place
the claim in the RTS status when all workup, pre-hearing development, and contact
have been completed.




18
  In its September 2006 report Improving the Social Security Administration’s Hearing Process, the Social
Security Advisory Board stated that many ALJs do not have experience managing a large docket of cases
and recommended they receive training on docket management.
Page 10 - The Commissioner

                         Figure 5: Claims in Ready to Schedule Status
                              Past the Benchmark (as of June 2006)


                            Untimely                              Timely 10,513
                          7,526 Claims                               Claims
                              (42%)                                  (58%)

                                                                               60 to 120 Days
                                                                               >120 Days




We interviewed managers and staff in a number of hearing offices 19 to determine why
claims were not scheduled for a hearing on a timely basis. The primary causes related
to ALJ departures, scheduling conflicts, and remote site policies.

•     ALJ departure from the hearing office - Hearing offices attempt to schedule
                                                              20
      hearings 3 months in advance, and when an ALJ departs, all the claims that were
      scheduled with the departing ALJ have to be rescheduled.

•     Scheduling conflicts - The Scheduler had difficulty scheduling medical experts and
      claimant representatives on the same day. For one claim in RTS status over
      1,000 days, the hearing office could not find an orthopedic doctor for the hearing.
      SSA has recognized that hearing offices have difficulties scheduling medical and
      vocational experts. In its Disability Service Improvement process, SSA will
      implement a new Medical-Vocational Expert System (MVES) to enhance the
      expertise needed to make accurate and timely decisions. The MVES will be
      composed of a Medical-Vocational Expert Unit and a national network of medical,
      psychological and vocational experts who meet qualification standards established
      by the Commissioner.

•     Waiting to fill a docket at remote site - The Scheduler was waiting for enough
      cases to fill a docket at a remote hearing site. ALJs travel to remote sites to hold
      hearings, and hearings are held in these remote sites when there are enough claims
      to make it cost-effective for ALJs to travel there. SSA installed video teleconference
      equipment in an effort to expedite hearings in remote locations. As of the end of
      FY 2005, ODAR had installed 295 video hearing units and held almost 25,000 video
      hearings during that year.




19
     See Appendix D for further details on our scope and methodology.
20
  An ALJ may depart from a hearing office for a variety of reasons, including reassignment to another
hearing office, temporary detail, and retirement.
Page 11 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
As of June 2006, the majority of ODAR’s pending claims were not being tracked by the
No Status Change report. Of those that were being tracked, we were unable to find a
link between the No Status Change benchmarks and the Agency’s annual processing
goals. We believe ODAR’s management information reports should be designed to
support the Agency's overall performance goals. Furthermore, more than a third of the
claims being tracked under the No Status Change report exceeded at least one
benchmark. Claims tended to bottleneck at the MDKT, ARPR, and RTS status codes.
In the case of the claims accumulating under the MDKT status code, hearing offices
were following different procedures when assigning this code to claims. Also, while
SSA has taken steps to address two of the main difficulties related to scheduling claims
under the RTS status code, the Agency has not provided guidance to hearing offices for
mitigating delays caused when an ALJ departs a hearing office.

To assist hearing offices in efforts to monitor their hearing claims workload, we
recommend SSA:

1. Ensure the No Status Change benchmarks include all relevant steps in the hearing
   process, while not exceeding the Agency’s performance goal for average processing
   time.

2. Ensure all hearing offices use the same coding procedures for claims in MDKT
   status.

3. Assist hearing offices in establishing provisions to handle situations that affect the
   scheduling of hearings, including when an ALJ departs a hearing office.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations and has already initiated corrective action. The
full text of the Agency’s comments is included in Appendix E.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Status Codes Used by the Case Processing and Management System

APPENDIX C – No Status Change Report Process Chart

APPENDIX D – Scope and Methodology

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
ALJ        Administrative Law Judge
CPMS       Case Processing and Management System
eDIB       Electronic Disability
FY         Fiscal Year
HOD        Hearing Office Director
MVES       Medical - Vocational Expert System
ODAR       Office of Disability Adjudication and Review
OIG        Office of the Inspector General
SSA        Social Security Administration
                                                      Appendix B

Status Codes Used by the Case Processing
and Management System
      DESCRIPTION                              CPMS CODES
      ALJ at home post work activity           ALFL
      ALJ at home pre-workup                   ARFL
      ALJ dictating decision                   AWRT
      ALJ review post-hearing                  ALPO
      ALJ review pre-hearing                   ARPR
      ALJ writer flexi-place                   AWFL
      ALJ writer speech recognition            AWSR
      ALJ writing decision on PC               AWPC
      Assigned for workup/being worked up      WKUP
      At home drafting                         DWFL
      At home workup                           WKFL
      Awaiting mailing                         MAIL
      Contract pulling                         WKCN
      Decision writer/ALJ editing              EDIT
      Decision writer dictating decision       DWRT
      Decision writer pre-hearing review       DWR
      Decision writer speech recognition       DWSR
      Decision writer writing decision on PC   DWPC
      Dismissal being written                  DISM
      Edit                                     EDIT
      Sign                                     SIGN
      Master docket                            MDKT
      Pending ALJ review and signature         SIGN
      Post-hearing development                 POST
      Pre-hearing development                  PRE
      Ready to schedule                        RTS
      Temporary out for typing                 TOUT
      Temporary out for workup                 WOUT
      Temporary out for writing                DOUT
      Temporary out for writing and typing     DANT
      Typing in draft                          TYPG
      Typing in final                          FINL
      Typist corrections                       CORR
      Unassigned decision writer review        UNDW
      Unassigned typing                        UNTP
      Unassigned workup                        UNWK
      Unassigned writing                       UNWR
      STATUS ASSIGNED BY CPMS
      Disposition issued                       CLSD
      Permanently transferred                  TRAN
      Scheduled for hearing                    SCHD
                                                                                          Appendix C

No Status Change Report Process Chart
Figure C-1 illustrates the status codes tracked by the No Status Change report, along
with the benchmark time and a definition of each of the 12 status codes. If a claim
stays in status beyond the benchmark time, the claim will appear in the No Status
Change report.

                       Figure C-1: No Status Change Process Chart

PROCESSING STAGES                                 STATUS CODE DEFINITIONS


 Input claim into         Master Docket        A request for hearing has been received in the hearing office. The
   the Master                MDKT
                                               hearing office may or may not have the claim file. No action is
                        Benchmark 30 days
     Docket                                    taken on the claim other than to log it into CPMS.


                            Work Up
                             WKUP
                                               The claim is assigned to a senior case technician for preparing
                       Benchmark 25 days       exhibits and medical summaries.
 Pre-Hearing
 Development        Pre-Hearing Development    If any information is requested prior to a hearing, including a prior
                              PRE              filing, the claim is placed in this status until the information is
 and Review            Benchmark 90 days       received.
                    Administrative Law Judge
                      Review Pre-Hearing       The claim is being reviewed by the Administrative Law Judge
                             ARPR              (ALJ) prior to the hearing to determine whether (1) enough
                       Benchmark 10 days       evidence is present to hold a hearing and (2) expert witnesses are
                                               needed.
   Schedule            Ready to Schedule
                              RTS              When all workup, pre-development, and contact has been
    Hearing            Benchmark 60 days       completed, the claim is ready to schedule for a hearing.

                    Post-Hearing Development
 Post-Hearing                POST              The hearing was held and additional development was requested.
 Development           Benchmark 90 days
     and            ALJ Review Post-Hearing    The hearing was held and the ALJ is examining the record
   Review                    ALPO              either after the hearing, after POST development has been
                       Benchmark 30 days       received, or any other time after the hearing, but prior to the
                                               writing and review of the decision.
                       Unassigned Writing
                             UNWR              The claim is ready for a decision to be written, but has not been
                       Benchmark 30 days       assigned to a specific writer.

                        Decision Writer
    Writing            Personal Computer       The claim is assigned to a specific writer for decision writing. The
     Final                   DWPC              writer is using a personal computer to draft the decision.
    Decision           Benchmark 15 days

                              EDIT             The claim is assigned to the writer or the ALJ for proofing and/or
                       Benchmark 15 days       editing.
                             SIGN
                       Benchmark 7 days        The decision is ready for the ALJ’s final review and signature.

                             MAIL              The decision is signed by the ALJ and is ready for release.
                       Benchmark 7 days
                                                                        Appendix D

Scope and Methodology
To accomplish our review, we:

    •   Reviewed documents related to the Social Security Administration’s (SSA) Case
        Processing and Management System (CPMS) and related initiatives.

    •   Reviewed SSA’s Performance and Accountability Reports as well as Office of
        Disability Adjudication and Review (ODAR) quarterly and annual reports.

    •   Reviewed prior SSA Office of the Inspector General reports.

    •   Reviewed hearing office guiding principles and procedural guidance documented
        in ODAR’s Hearings, Appeals and Litigation Law manual.

    •   Reviewed ODAR Chief Judge’s memorandums and reminders.

    •   Analyzed and compiled data on 140 CPMS No Status Change reports to find the
        bottlenecks in the hearing process.

    •   Interviewed ODAR headquarters executives and staff at ODAR’s Office of Chief
        Administrative Law Judge.

    •   Interviewed managers, ALJs and staff within the following Regions: Atlanta,
        Boston, Chicago, Denver, New York, Philadelphia, San Francisco, and Seattle.

The entity audited was the Office of the Deputy Commissioner for Disability
                                                   1
Adjudication and Review. Based on prior audit work, we determined that the No
Status Change reports provided by ODAR were sufficiently reliable to meet our
objectives. We conducted our audit from May 2006 through October 2006 in
accordance with generally accepted government auditing standards.




1
 SSA OIG, Case Processing and Management System and Workload Management (A-12-06-26012),
June 2006.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      March 19, 2007                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/


Subject:   Office of the Inspector General (OIG) Draft Report, "Management’s Use of Workload Status
           Reports at Hearing Offices" (A-12-06-26130) -- INFORMATION


           Thank you for the opportunity to review and comment on the Office of the Inspector General
           (OIG) Draft Report, "Management’s Use of Workload Status Reports at Hearing Offices"
           (A-12-06-26130). We appreciate OIG’s efforts in conducting this review. Our comments on the
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “MANAGEMENT’S USE OF WORKLOAD STATUS REPORTS AT
HEARING OFFICES” (A-12-06-26130)

Thank you for the opportunity to review and provide comments on this draft report. A mission
of the Office of the Chief Administrative Law Judge (OCALJ) is to provide Administrative Law
Judge (ALJ) hearings and decisions that are timely and legally sufficient. One of the core
management initiatives of the OCALJ is to instill a culture of management responsiveness, such
as encouraging managers to assign work more frequently in smaller units and to follow-up on the
assignment of work more frequently. Based on that initiative, we instituted a decision writing
productivity project where management guidelines were established for assigning and following-
up on decision writing work. We are gathering national data on decision writing productivity and
have recently instituted informal weekly reporting. This step should encourage hearing offices to
view case processing using a weekly rather than monthly timeframe. In concert with this basic
management principle, we are in the process of revising our benchmarks.

Recommendation 1

Ensure the No Status Change benchmarks include all relevant steps in the hearing process, while
not exceeding the Agency’s performance goal for average processing time.

Comment

We agree with the intent. We are in the process of developing “guidelines” for each Case
Processing Management System (CPMS) status that would track the Agency’s performance goal
for average processing time. We use the term “benchmarks” for a different management
purpose.

Recommendation 2

Ensure all hearing offices use the same coding procedures for claims in Master Docket (MDKT)
status.

Comment

We agree. We will release guidance to the Regional offices regarding the proper use of the
CPMS MDKT Status Code by the end of the third quarter of fiscal year (FY) 2007. In particular,
we will outline the specific definition for the use of the MDKT status code and provide
instructions to the hearing offices to update the status on those cases pending inappropriately in
the MDKT status code. Additionally, we are in the final stages of revising the OCALJ CPMS
benchmarks for workload processing.




                                               E-2
Recommendation 3

Assist hearing offices in establishing provisions to handle situations that affect the scheduling of
hearings, including when an ALJ departs a hearing office.

Comment

We agree. HALLEX I-2-8-40 provides guidance for workload procedures to address the
situation when an ALJ departs a hearing office. However, we will release a reminder to hearing
offices about the exiting procedures by the end of the third quarter of FY 2007.




                                                E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Michael Maloney, Audit Manager, (703) 578-8844

Acknowledgments

In addition to those named above:

   Nicholas Milanek, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-06-26130.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
